Department of Homeland Security
   Ofﬁce of Inspector General

       Evaluation of DHS’ Security Program 

     and Practices for Intelligence Systems for 

                 Fiscal Year 2011 


              (Unclassified Summary) 





OIG-11-98                                    July 2011
                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                           Office of Inspector General 

  Evaluation of DHS’ Security Program and Practices for Intelligence Systems for 

                                Fiscal Year 2011 

                                    OIG-11-98 



We reviewed the Department of Homeland Security’s (DHS) enterprise-wide security
program and practices for Top Secret/Sensitive Compartmented Information intelligence
systems. Pursuant to the Federal Information Security Management Act of 2002, we
reviewed the department’s security management, implementation, and evaluation of its
intelligence activities, including its policies, procedures, and system security controls for
enterprise-wide intelligence systems. In doing so, we assessed the department’s
assessment and authorization, incident response and reporting, information security
training, plan of action and milestones, continuous monitoring, and contingency planning
programs.

The department continued to improve its enterprise-wide information security
management program for intelligence systems. DHS has developed information security
policies and procedures and implemented effective security controls on intelligence
systems. While system controls have been strengthened, more oversight is needed to
ensure the security program’s policies are implemented. We have concerns with the
oversight of component plans of actions and milestones, verification of the intelligence
systems inventory, establishment of a department-wide continuous monitoring program,
and development of an information security training program for intelligence personnel.
Fieldwork was conducted from April through July 2011. (OIG-11-98, July 2011, IT)
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
